   February 26, 2004




Acquisition
Sole-Source Awards for Quick
Disconnect Silencers
(D-2004-052)




              Department of Defense
          Office of the Inspector General
Quality                Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

FAR                  Federal Acquisition Regulation
KAC                  Knight Armament Corporation
NAVICP               Naval Inventory Control Point
NSWC                 Naval Surface Warfare Center
SOPMOD               Special Operations Peculiar Modification
USSOCOM              United States Special Operations Command
         Office of the Inspector General of the Department of Defense
Report No. D-2004-052                                                 February 26, 2004
   (Project No. D2003AD-0095)

             Sole-Source Awards for Quick Disconnect Silencers

                                Executive Summary

Who Should Read This Report and Why? DoD procurement and contracting
personnel involved in acquisition and sustainment planning should read this report. The
report discusses the allegations concerning sole-source awards and operational capability
of the quick-detach silencer. Officials reading this report will better understand the
planning needed to comply with competition requirements under section 2304 of title 10,
United States Code. The terms silencer and suppressor are synonymous and here after
suppressor will be used in the narrative.

Background. The audit was performed in response to a congressional request
concerning allegations about the award process for recent sole-source contracts to Knight
Armament Corporation for the quick-detach suppressor. The complaint also raised
questions about the accuracy, cost, loudness, and operational suitability of the subject
suppressor as compared to the complainant’s suppressor.

The suppressor and muzzle brake are part of an accessory kit used by Special Operations
Forces on the M4A1 Carbine. The suppressor decreases the M4A1 Carbine flash and
sound without significantly changing the point of impact and makes it more difficult to
discern the direction of fire. There have been four sole-source contracts for an estimated
total value of $4,396,810, awarded to the Knight Armament Corporation for quick-detach
suppressors. In addition, another solicitation was published in January 2003 for a
competitive award with an estimated purchase of 22,000 suppressors for the M4A1
Carbine; however, the contract has not been awarded.

Results. We substantiated the portion of the allegation concerning questionable
sole-source awards. Naval Surface Warfare Center, Crane Division did not adequately
plan procurements for the M4A1 Carbine suppressors to meet future mission
requirements. As a result, the Naval Inventory Control Point inappropriately justified the
award of sole-source contracts and did not meet the intent of the “Competition in
Contracting Act” and section 2304 of title 10, United States Code. In addition, the Naval
Inventory Control Point awarded an additional sole-source contract at the same time a
competitive solicitation was open. Those awards may not have been in the best interest
of the Government. To improve acquisition planning and increase competition, the
Naval Surface Warfare Center, Crane Division should establish procedures to ensure
acquisition planning is performed in accordance with the Federal Acquisition Regulation,
reevaluate whether to continue with the current competitive solicitation or recompete the
award, and only place delivery orders on Knight Armament Corporation sole-source
contract N00164-03-D-L003, to support compelling urgency. The complainant’s
concerns about characteristics of the quick-detach suppressor were not substantiated.
Quality comparisons of the complainant’s suppressor to the subject suppressor were not
meaningful because they involved different weapons. See Appendix B for complete
details.
Management Comments. The Deputy Assistant Secretary for the Navy (Littoral and
Mine Warfare) provided comments for the Navy and generally agreed with the
recommendations. Although not required to comment, the U.S. Special Operations
Command Deputy Commander and the U.S. Army, Special Operations Command Chief
of Staff also provided comments that generally concurred with the recommendations. All
three responses agreed that adequate acquisition planning was necessary and should
include funding issues. They also agreed that the decision to continue with the
competitive solicitation needed to be reevaluated. The Navy and the U.S. Special
Operations Command stated that established procedures for planning already exist with
funding considered. The Navy further stated that competitive solicitation had been
reevaluated and that it was in the best interest of the Government to continue the current
solicitation because the new Family of Muzzle Brakes and Suppressors will provide
increased capabilities. The Navy and U.S. Special Operations Command non-concurred
with the recommendation to refrain from placing orders against the existing sole-source
contract. The Navy stated that until a new contract is established, refraining from use of
the existing contract could create a suppressor shortage that presents an unacceptable risk
to our forces. See the Finding section of the report for a discussion of management
comments and the Management Comments section for the complete text of the
comments.

Audit Response. Although the Navy and the U.S. Special Operations Command stated
that established procedures exist for planning, their comments were not fully responsive.
We believe that those procedures were not used in actual practice for the sole-source
awards that we reviewed. The 4 sole-source awards were made over a period of less than
10 months at an estimated value of approximately $4.4 million and were justified based
on urgent need. There was a known requirement for suppressors, and the Navy had
sufficient time to plan for competitive awards. The Navy did not document issues related
to funding or consideration of funding alternatives as part of its planning. The Navy’s
comments on reevaluating the competition solicitation for the new Family of Muzzle
Brakes and Suppressors met the intent of our recommendation and no additional
comments are required. Based on the comments from the Navy and U.S. Special
Operations Command, we revised our recommendation on refraining from the use of the
existing contract to allow for orders under urgent circumstances. Accordingly, we
request additional comments from the Navy on the final report by March 26, 2004.




                                             ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     2

Finding
     Acquisition Planning for M4A1 Carbine Suppressors at the Naval Surface
        Warfare Center, Crane Division                                         3

Appendixes
     A. Scope and Methodology                                                 10
         Prior Coverage                                                       11
     B. Additional Allegation Issues                                          12
     C. Additional Audit Response to Navy Comments on the Report              13
     D. Congressional Request                                                 15
     E. Report Distribution                                                   16

Management Comments
     Department of the Navy                                                   19
     Department of the Army                                                   25
     United States Special Operations Command                                 27
Background
    The audit was performed in response to a congressional request. The
    Congressman was concerned about a complaint from one of his constituents that
    recent sole-source awards to another contractor may have been inappropriate. See
    Appendix D for the congressional letter.

    Allegation. OPS Inc., a suppressor manufacturer in Shingletown, California,
    alleged that recent sole-source awards to Knight Armament Corporation (KAC), a
    manufacturer of a different suppressor, may have been inappropriate.
    Specifically, the complainant raised issues about performance metrics and costs of
    the selected suppressor. The complainant also indicated that the OPS Inc.
    suppressor was superior to the selected suppressor. Finding A addresses the
    sole-source contracts awarded to KAC. The remaining issues of the complainant
    are discussed in Appendix B.

    Sole-Source Acquisitions. The Naval Surface Warfare Center (NSWC),
    Crane Division, Crane Indiana, authorized the Naval Inventory Control Point
    (NAVICP), Mechanicsburg, Pennsylvania, to award a sole-source firm fixed price
    sustainment contract for 1,395 suppressors, with a potential value of $891,405 to
    KAC on October 31, 2002, because the prior competitive contract expired in
    September 2001. The Justification and Approval stated there was an urgent and
    unique need. Two other sole-source contracts were awarded to KAC. Both of
    those contracts were awarded under the simplified acquisition threshold for small
    amounts ($8,946 and $60,062). In addition, NAVICP issued another sole-source
    5-year contract award to KAC for an estimated value of $3,436,397 dated
    August 25, 2003, even as officials were aware that we were reviewing the
    appropriateness of prior awards and while a competitive solicitation was open.
    The estimated contract value for the four sole-source contracts totaled
    $4,396,810. The following table depicts the sole-source and competitive
    contracts awarded or planned for the M4A1 suppressor.

                   Summary of NAVICP and NSWC, Crane Division
                   Contract Actions for M4A1 Carbine Suppressors

       Issuing        Contract/Solicitation            Contract          Competitive/
        Office              Number                   Award Date          Sole-Source
     NSWC             N00164-96-D-0010            September 18, 1996     Competitive
     NAVICP           N00104-03-C-LA05             October 31, 2002      Sole-Source
     NAVICP           N00104-03-P-LA17             November 1, 2002      Sole-Source
     NAVICP           N00104-03-P-LD27               May 19, 2003        Sole-Source
     NSWC             N00164-02-R-0065              Award Pending        Competitive
     NAVICP           N00104-03-D-L003              August 25, 2003      Sole-Source


    Use of Suppressors. A suppressor and muzzle brake are used to decrease M4A1
    flash and sound during firing without significantly changing the point of impact.
    The purpose of the suppressor is to increase the difficulty in locating the position
    from which the live fire occurred. The M4A1 suppressor is part of an accessory
    kit that is used by Special Operations Forces and managed by the NSWC, Crane


                                              1
    Division. The terms silencer and suppressor are synonymous for the purposes of
    this audit and the term suppressor will be used in our report narrative. The
    following picture depicts the M4 accessory kit.




    Special Operations Peculiar Modification M4 Accessory Kit Items


Objectives
    Our overall audit objective was to determine whether recent sole-source awards
    for the quick-detach suppressor were appropriate, specifically, the validity of the
    allegations. See Appendix A for a discussion of the scope and methodology.




                                         2
            Acquisition Planning for M4A1 Carbine
            Suppressors at the Naval Surface
            Warfare Center, Crane Division
            We substantiated the allegation that inappropriate sole-source awards were
            made for the M4A1 Carbine suppressors. Specifically, the NSWC, Crane
            Division did not adequately plan procurements for the M4A1 Carbine
            suppressors to meet future mission requirements because the Federal
            Acquisition Regulation (FAR) was not followed. As a result, the
            NAVICP inappropriately justified the award of sole-source contracts and
            did not meet the intent of the “Competition in Contracting Act,” and
            section 2304 of title 10, United States Code, (10 U.S.C. 2304). In
            addition, the NAVICP awarded an additional sole-source contract at the
            same time a competitive solicitation was open. Those awards may not
            have been in the best interest of the Government.


Acquisition Regulation
     Section 253 of title 41, United States Code, (41 U.S.C. 2304) “Competition in
     Contracting Act,” and 10 U.S.C. 2304 “Competition Requirements,” requires that
     the agency shall obtain full and open competition through the use of competitive
     procedures in accordance with the FAR requirements.

     FAR Part 7, “Acquisition Planning,” requires that acquisition planning should
     begin as soon as the agency need is identified, preferably well in advance of the
     fiscal year in which the contract award is necessary. It further specifies that
     requirements and logistics personnel should avoid issuing requirements on an
     urgent basis or with unrealistic delivery or performance schedules, since it
     generally restricts competition and increases prices. As part of acquisition
     planning, FAR requires acquisition planners to describe how competition will be
     sought, promoted, and sustained for the procurement of spares. Agencies are also
     required to procure supplies in such quantities that will result in the total cost and
     unit cost most advantageous to the Government. Early in the planning process,
     the planner should consult with requirements and logistics personnel who
     determine type, quality, quantity, and delivery requirements.


Adequacy of Planning
     We substantiated the allegation that inappropriate sole-source awards were made.
     Specifically, NSWC, Crane Division did not adequately plan procurements for
     suppressors to meet future requirements because FAR Part 7.104, “General
     Policies” for planning requirements was not followed once it was determined that
     a valid requirement existed.




                                           3
Mission Requirements. NSWC, Crane Division did not adequately plan for
future contracts for M4A1 suppressors, even though contracting officials knew a
valid requirement existed. In October 1999, the operational requirements for the
Special Operations Peculiar Modifications (SOPMOD) kit for the M4A1 Carbine
were revalidated, indicating that a valid suppressor requirement continued to
exist. However, no advance planning was conducted to ensure a contract would
be in place to meet this requirement.

Initial Suppressor Contract. On September 18, 1996, NSWC, Crane Division
awarded an initial 5-year competitive contract, N00164-96-D-0010, to KAC for
suppressors to support future operational needs. The contract expired in
September 2001. Both the NSWC, Crane Division program office and
contracting officials allowed the contract to lapse despite the valid and
reoccurring requirements, as the suppressor has been acquired for more than 9
years. Contracting officials should have begun planning for a replacement
competitive contract well in advance of the expiration of the first competitive
contract; however, no effort was made. Instead, the NAVICP awarded four
sole-source procurements to KAC without allowing competition.

Before the expiration of the FY 1996 contract, the NSWC, Crane Division could
have issued a competitive solicitation for an indefinite delivery-indefinite quantity
contract for a minimum amount of suppressors in order to have a competitive
contract in place in case urgent requirements or the need for spares arose. FAR
Subpart 16.504, “Indefinite-Quantity Contracts,” states that when a recurring need
is anticipated and the Government cannot predetermine the precise quantities of
supplies that will be required during the contract period, an indefinite-quantity
contract may be used. Instead, an indefinite delivery-indefinite quantity
solicitation was not published until over a year later. This solicitation,
N00164-02-R-0065, specified a minimum quantity of six suppressors, which
would only obligate the NSWC, Crane Division to purchase six suppressors for an
estimated total cost of $4,400 for the contract period plus the cost of advertising
and testing the proposed suppressors. Planning to award a competitive indefinite
delivery-indefinite quantity contract before the expiration of the base contract
would have eliminated the need to award sole-source contracts for urgent
requirements and for sustainment purchases.

Suppressor Funding. The NSWC, Crane Division program office personnel
stated that the United States Special Operations Command (USSOCOM),
MacDill Air Force Base, Tampa, Florida, provides funding for the SOPMOD
program. The funding is then divided among the 18 accessories within the
SOPMOD program. When funding was reduced, the USSOCOM Program
Executive Office Special Project, the Joint User Representatives, and the NSWC,
Crane Division Program Management Office had to plan and list priorities based
on the funding constraints within the SOPMOD program. The suppressor was not
considered a priority item; therefore, suppressors were not allocated funding for
FY 2000 and FY 2001.

Contracting personnel at NSWC, Crane Division stated that before the expiration
of the FY 1996 base contract, advance planning was not conducted for a new
solicitation because funding was not allocated to the purchase of suppressors;
however, a solicitation could have been initiated with minimal funds. A lack of


                                     4
    funds does not exempt the program officials from continuing to plan if there
    continues to be a valid requirement. If funding was limited and a requirement still
    existed, selecting a contract type that would minimize the Government’s
    obligation and still promote competition would be a viable solution. FAR
    Subpart 6.301(c)(2), “Policy,” states that concerns related to availability of funds
    cannot be the basis to justify other than full and open competition. The
    contracting office and the users should have performed adequate advance
    planning to facilitate competitive solicitations within funding constraints, rather
    than having to award subsequent sole-source contracts. In a period of 10 months,
    from October 31, 2002 to August 25, 2003, contracting officials awarded four
    sole-source contracts.

    Spares for Sustainment. NSWC, Crane Division also did not adequately plan
    for spares required for sustainment. NSWC, Crane Division, Materiel Fielding
    Plan, November 22, 1996, states that an amount equal to 10 percent of the
    suppressors issued to the field, regardless of service component, would be
    retained at the NSWC, Crane Division as spare and repair parts to support those
    fielded units in case of part failures and to meet replenishment needs. According
    to the documentation provided by the Life Cycle Sustainment Manager for the
    SOPMOD program, only 11 spares were available for sustainment purposes. The
    manager stated the inventory level did not meet the on-hand suppressor threshold
    of 326.


Sole-Source Contracts
    Because acquisition planning was not performed as required, competition was
    avoided and the Naval Inventory Control Point inappropriately justified the award
    of four sole-source contracts. The NAVICP awarded sole-source contracts to
    meet mission requirements, including sustainment purchases. On June 19, 2002,
    the Department of the Army, Headquarters, U.S. Army Special Command
    (Airborne), Ft. Bragg, North Carolina, identified a need to field SOPMOD
    components to the 19th and 20th Army National Guard Special Forces Group.
    The Navy Inventory Control Point prepared and signed the Justification and
    Approval on October 24, 2002, and awarded the sole source contract
    October 31, 2002, to Knight Armament Corporation. The justification and
    approval was based on urgency, the need for standardization in the field as a
    result of Operation Enduring Freedom, and the lack of technical data. However,
    the urgency occurred because of a lack of acquisition and sustainment planning.
    Had proper planning occurred throughout the acquisition process, there would
    have been no need to justify an urgent procurement and NSWC, Crane Division
    would have had sufficient time to promote competition, reduce lead-time, ensure
    that funds would be made available for the solicitation, and provide the earliest
    delivery of the items to meet mission requirements.

    Two other contracts were awarded in November 2002 and May 2003 on a
    sole-source basis using simplified acquisition procedures. FAR Subpart 13.106-1
    “Soliciting Competition,” states that the contracting officer must determine that
    only one source is reasonably available. Those awards were made without
    providing an adequate determination for awarding a sole-source contract. The


                                         5
    contracting officer stated that simplified acquisition procedures were used to
    acquire suppressors for sustainment and provided no further explanation.

    A fourth sole-source contract, N00104-03-D-L003, was awarded to KAC in
    August 25, 2003. A review of contract documentation related to this award
    revealed inconsistencies between the solicitation, the justification and approval,
    and the contract award. Those discrepancies were brought to the attention of the
    NAVICP Division Contract Officer. The contracting officer acknowledged that
    discrepancies existed, and subsequently took the necessary actions to provide
    updated documentation.


Coordination for Suppressor Awards
    NAVICP issued the sole-source contract to KAC in August 25, 2003 even though
    officials were aware that we were reviewing the appropriateness of prior awards
    and while a competitive solicitation was open.

    Current Solicitations. On January 14, 2003, NSWC, Crane Division issued a
    competitive solicitation, N00164-02-R-0065, to acquire 22,000 suppressors for
    the M4A1 Carbine. Several proposals were received and the testing is complete;
    however, the contract had not been awarded. The solicitation stated that the
    SOPMOD program was not seeking alternate sources for the current Quick-
    Detach Sound Suppressor. Instead, the program was pursuing a Family of
    Muzzle Brakes and Suppressors that exhibited improved capabilities over the
    standard Quick-Detach Sound Suppressor. The operational test report indicates
    that the suppressors that remained in competition may not provide improved
    capabilities.

    Despite the competitive solicitation, NSWC, Crane Division directed that
    NAVICP publicize solicitation N00104-03-R-LB85 dated January 29, 2003, as a
    sole-source 5-year contract to KAC. On August 25, 2003, 7 months after the
    close of the solicitation, the contract was awarded to KAC. The sole-source
    contract has a potential cost of $3,436,397 for up to 5,025 suppressors for the
    M4A1 Carbine weapon.

    NSWC, Crane Division did not perform advance planning and coordination for
    suppressor acquisitions in the FY 2003 solicitation. Competition was avoided
    when several sole-source contracts were awarded. A lack of coordination
    occurred when NAVICP was tasked to award another sole-source contract and a
    competitive award was pending. Those actions further highlight concerns about
    the justification of a sole-source award because a competitive contract for the
    M4A1 Carbine suppressors was being planned for award during the same time
    frame.




                                         6
Conclusion
    We substantiated the allegation in the complaint that inappropriate sole-source
    contracts were awarded for the M4A1 Carbine suppressor. NSWC, Crane
    Division did not perform adequate acquisition planning nor did they prioritize the
    suppressor requirement to ensure funding was allocated for a competitive contract
    to be in place to meet future requirements before the expiration of the FY 1996
    base contract. Specifically, NSWC, Crane Division did not meet the intent of
    “Competition in Contracting Act” and 10 U.S.C. 2304, and did not follow the
    FAR, which states that contracting without providing for full and open
    competition shall not be justified on the basis of a lack of advance planning by the
    requiring activity or concerns related to the amount of funds available to the
    agency. Adequate procurement planning should include the prioritization and
    allocation of funding to fill requirements. As a result, the justifications used for
    the award of sole-source contracts were not adequate. Also, the recent sole-
    source contract awarded to KAC is unjustified and unnecessary because there is a
    competitive suppressor award pending for the M4A1 Carbine.


Navy Comments on the Report and Audit Response
    The Deputy Assistant Secretary of the Navy (Littoral and Mine Warfare) provided
    comments for the Navy on the finding and recommendations to the report. The
    Navy comments on the finding and the audit response are discussed in
    Appendix C. Although not required, the Department of Army (Special
    Operations Command) and the U.S. Special Operations Command also provided
    comments on the recommendation. The complete text of the Navy’s comments is
    in the Management Comments section of this report.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. We revised Recommendation 3. to specify that in
    the interim, until actions are completed on Recommendation 2., and a new
    competitive contract is awarded, delivery orders should only be placed on the
    KAC sole-source contract, N00104-03-D-L003, when there is an event that would
    support an urgent and compelling need.

    We recommend that the Commander, Naval Surface Warfare Center, Crane
    Division in coordination with the Commander, U.S. Special Operations
    Command:

               1. Establish procedures to ensure acquisition planning is
    performed in accordance with the Federal Acquisition Regulation and
    consider funding needs as part of the planning.




                                         7
Naval Surface Warfare Center, Crane Division Comments. The Deputy
Assistant Secretary of the Navy (Littoral and Mine Warfare) concurred, indicating
that each Command currently has established procedures to ensure acquisition
planning is in accordance with the Federal Acquisition Regulation and that
funding needs are considered in the planning process.

Department of the Army (Special Operations Command) Comments.
Although not required to comment, the Chief of Staff, U.S. Army Special
Operations Command agreed that a maximum effort should be placed on effective
acquisition planning.

U.S. Special Operations Command Comments. Although not required to
comment, the Deputy Commander, U.S. Special Operations Command agreed in
principle stating that procedures were established and funding is always
considered.

Audit Response. The Deputy Assistant Secretary of the Navy comments were
not fully responsive. Although the Navy stated that procedures were in place, our
audit clearly indicated the procedures were not being practiced. The Navy also
did not document consideration of funding alternatives that would have facilitated
competition. The Navy should issue a written policy reminder that states that
adequate acquisition planning must consider and document funding alternatives
that will facilitate use of competition to the maximum extent possible.

            2. Reevaluate whether to continue with the current competitive
solicitation or re-compete the award because the new Family of Muzzle
Brakes and Suppressors may not provide increased capabilities.

Naval Surface Warfare Center, Crane Division Comments. The Deputy
Assistant Secretary of the Navy (Littoral and Mine Warfare) concurred. The
Deputy Assistant Secretary of the Navy stated that the solicitation was
reevaluated and was determined to be in the best interest of the Government. The
Deputy Assistant Secretary of the Navy stated that developmental testing showed
increased capabilities, and the newly competed suppressor is suitable for combat.

U.S. Special Operations Command Comments. Although not required to
comment, the Deputy Commander, U.S. Special Operations Command agreed
that the current competitive solicitation should be reevaluated to determine if
capabilities are increased.

Audit Response. The Navy’s response met the intent of the recommendation.

          3. In the interim until a competitive award can be made, delivery
orders should only be placed on the KAC sole-source contract,
N00104-03-D-L003, when there is an event that would support an urgent and
compelling need.

Naval Surface Warfare Center, Crane Division Comments. The Deputy
Assistant Secretary of the Navy (Littoral and Mine Warfare) non-concurred with
our original recommendation to refrain from placing orders on the sole-source
contract until a decision was made to evaluate or re-compete the current


                                     8
competitive solicitation. The Deputy Assistant Secretary of the Navy stated that
the contract is necessary to provide a continuous source of suppressors to U.S.
Special Operations Command units until the competitive contract begins. The
Deputy Assistant Secretary of the Navy stated that canceling the award could
create a shortage of suppressors.

U.S. Special Operations Command Comments. Although not required to
comment, the USSOCOM disagreed with the original recommendation.

Audit Response. We revised this recommendation to allow procurements to
continue for urgent and compelling needs only until a new competitive contract is
in place.




                                    9
Appendix A. Scope and Methodology
   We performed this audit in response to a congressional request to determine
   whether the allegation we received in December 2002 had merit. To accomplish
   our audit objective, we identified, analyzed, and documented applicable FAR
   requirements for sole-source contracts and:

          •   interviewed NSWC, Crane Division and NAVICP contracting
              personnel to obtain contract documentation from FY 1996, FY 2002,
              and FY 2003, and to determine the adequacy of sole-source awards for
              the M4A1 suppressor.

          •   interviewed NSWC, Crane Division; USSOCOM; and U.S. Army
              Special Operations Command, Ft. Bragg, North Carolina, program
              management personnel to obtain program documentation including the
              operational requirements document, test and evaluation master plan,
              and test and evaluation reports. This documentation was reviewed to
              determine if additional contractors could potentially provide a similar
              product for a lower cost with greater reliability or accuracy.

          •   issued a memorandum dated September 12, 2003, to the Commander,
              NSWC; Commander, NAVICP; and the Naval Inspector General to
              cancel the FY 2003 sole-source solicitation at the NAVICP and
              reevaluate whether to continue with the current competitive
              solicitation.

   We performed this audit from May 2003 through October 2003 in accordance
   with generally accepted government auditing standards. We did not review the
   management control program since this was not an announced audit objective.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Use of Technical Assistance. We requested technical assistance from the Chief
   of the Mechanical Engineering Branch, Technical Assessment Division of the
   Office of the Deputy Inspector General for Auditing to review the current
   competitive solicitation test results for the M4A1 Carbine suppressor. The
   accuracy test results could not be understood or interpreted because the X and
   Y coordinate readings stated in the table did not match with the accompanying
   graphs and no explanation was provided on whether the Family of Muzzle Brakes
   and Suppressors tested met the accuracy requirements.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD Contract Management high-risk area.




                                       10
Prior Coverage
    No prior coverage has been conducted on the award process of the quick-detach
    suppressor from the General Accounting Office, the Office of the Inspector
    General of the Department of Defense, or the Naval Audit Service during the last
    5 years.




                                       11
Appendix B. Additional Allegation Issues
    The allegations made in a congressional request, concerned complaints on the
    current quick-detach suppressor. The complainant stated that NSWC, Crane
    Division recently awarded several unjustified sole-source contracts to KAC for
    the quick-detach suppressor . The complainant believed that the accuracy, cost,
    loudness, and operational suitability of the OPS Inc. Special Purpose Receiver
    suppressor was superior to the KAC Quick-Detach Sound Suppressor for the
    following reasons:

           Accuracy. The current quick-detach suppressor demonstrates a
    degradation of accuracy and an excessive amount of shift from the zero of the
    unsilenced weapon after repeated installation and removal of the suppressor from
    the weapon.

          Cost. The KAC Quick-Detach Sound Suppressor, with the required KAC
    compensator, costs the government a sum of nearly $760.00 each.

            Loudness. The KAC Quick-Detach Sound Suppressor is considerably
    louder than the OPS Inc. Special Purpose Receiver.

            Operational suitability. The small clip that is used on the current quick-
    detach suppressor for attachment to the compensator is of such a design that the
    installation and removal of the suppressor is extremely difficult when it is
    necessary for the operator to wear gloves during cold weather conditions.

    Conclusion. The allegations concerning the quality comparisons as outlined
    above, of the suppressors were not relevant because they involved different
    weapons that were not interchangeable. As a result, comparing the accuracy,
    cost, loudness, and operational suitability of the two suppressors would not have
    been meaningful. We reviewed and evaluated the technical results from the
    FY 1996 competitive award and KAC met the operational requirements. OPS
    Inc. did not submit a proposal for the M4A1 Carbine suppressor in FY 1996.




                                        12
Appendix C. Additional Audit Response to Navy
            Comments on the Report
   The Deputy Assistant Secretary of the Navy (Littoral and Mine Warfare) provided
   comments on the finding and suggested some editorial changes throughout the
   report that we considered and made as appropriate. We also provided our audit
   response to their comments on the finding.

   Additional Navy Comments. The Navy stated that NSWC, Crane Division
   performed adequate acquisition planning based on the requirements prior to
   September 11, 2001. Several months before the expiration of the September 18,
   1996, competitive contract in September 2001, NSWC, Crane Division and
   USSOCOM determined that competing a new contract was not cost effective
   given the limited funding. The cost of competing a new contract ($240,000)
   compared to the extremely low demand for the Quick-Detach Sound Suppressor
   (13 to 50 or $8,000 to $28,000) dictated the use of simplified acquisition
   procedures. Following the expiration of the original indefinite delivery-indefinite
   quantity contract, and in order to meet the low demand for suppressors, NAVICP,
   Mechanicsburg awarded sole-source contracts. Two of the four sole-source
   contracts awarded on November 1, 2002, and May 19, 2003, used simplified
   acquisition procedures, which were not required to use Justifications and
   Approvals. NSWC, Crane Division stated that NAVICP, Mechanicsburg
   followed Part 6 of the FAR in awarding sole-source contracts by providing
   written justification (the suppressors are highly specialized parts, designed and
   manufactured by only one source, KAC, and the Government physically did not
   have in its possession sufficient, accurate, or legible data to purchase this part
   from someone other than KAC). NAVICP, Mechanicsburg also certified to the
   accuracy and completeness of the justification and obtained approval.

   NSWC, Crane Division further stated that efforts for a competitive indefinite
   delivery-indefinite contract (N00164-02-R-0065) commenced within 3-months
   (December 2001) of the events of September 11, 2001, to meet the demand for
   suppressors, which increased well beyond earlier estimates.

   Audit Response. We continue to question the adequacy of planning and the
   award of sole-source contracts. NAVCIP, Mechanicsburg awarded the first of
   four sole-source contracts on October 31, 2002, 13 months after the events of
   September 11, 2001. The Justification and Approval for Contract N00104-03-C-
   LA05 stated that to make an award to anyone other than KAC would require
   various user developmental and operational testing, that would take
   approximately 6 months. NSWC, Crane Division had sufficient time after the
   events of September 11, 2001, to award a competitive indefinite delivery-
   indefinite contract to cover the unforeseen, unprecedented increase. The amount
   of time it took to award this sole-source contract would have been sufficient to
   advertise, test, and award a competitive contract. The Navy’s lack of action to
   issue a competitive solicitation gives credence to the position that competition
   may have been intentionally restricted. In fact, the Navy’s subsequent actions
   provide further support for this contention. The NAVICP, Mechanicsburg stated
   in its Justification and Approval that the suppressor would be reviewed under the


                                       13
NAVICP Replenishment Parts Program. If it was determined the item could be
broken out, the Navy stated that future acquisitions would be competitive.
However, a determination was never made, and the Navy continued to award
sole-source contracts.

FAR Part 6 requires that each Justification shall contain sufficient facts and
rationale to justify the use of the specific authority cited. The NAVICP,
Mechanicsburg contracting office could not provide documentation on specific
statements to support the Justification and Approval. For example, there was no
current technical evaluation or market research performed.

NSWC, Crane Division and NAVICP, Mechanicsburg could also provide no
supporting documentation for statements made in the management comments to
this report. Specifically, the Navy could not provide:

   •   acquisition planning documents of NSWC, Crane Division to include
       notes, minutes of meetings, and market research conducted,

   •   documents on the determination made between NSWC, Crane Division
       and USSOCOM that competition was not cost efficient given the limited
       funding, or

   •   documentation for the cost estimate ($240,000) to put a contract in place.




                                    14
Appendix D. Congressional Request




                     15
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, U.S. Army Special Operations Command

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Inventory Control Point
Commander, Naval Surface Warfare Center

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Commander, U.S. Special Operations Command

Other Defense Organization
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        17
Department of Navy Comments




                    19
Final Report
 Reference




Revised




               20
21
22
     Final Report
      Reference




     Revised




23
24
Department of Army Comments
                              Final Report
                               Reference




                              Revised




                   25
26
United States Special Operations Command
Comments




                     27
28
Team Members
The Acquisition Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Bruce A. Burton
Eleanor A. Wills
Shelly M. Farber
Tomica Q. May
Denean D. Jones
Chandra P. Sankhla
Ann A. Ferrante
